OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

December 30, 2020
VIA ELECTRONIC DELIVERY
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Terance Valentine v. State of Florida, Case No. 20-6218***Capital Case***

Dear Mr. Harris:
On behalf of Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a 14-day extension of time to file the Brief in Opposition, extending the January 6,
2021 deadline to January 20, 2021. The Office of the Solicitor General has multiple
deadlines over the next week with limited staff assistance. In light of the deadlines and our
staff’s holiday schedules, Respondent requires a brief, 14-day extension. Counsel for
Petitioner does not object to this request.
Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record
cc:

Marie-Louise Samuels Parmer
Counsel of Record

